HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare Part B
Claims Processed by National Government Services for New Jersey Providers for
the Period January 1, 2003, Through December 31, 2005," (A-02-07-01044)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments for Medicare Part B
Claims Processed by National Government Services for New Jersey Providers for
the Period January 1, 2003, Through December 31, 2005," (A-02-07-01044)
May 5, 2008
Complete
Text of Report is available in PDF format (710 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
National Government Services overpaid Medicare providers $109,000
for 7 of the 100 high-dollar payments ($10,000 or more) in our statistical
sample for calendar years (CY) 20032005. The 93 remaining sampled payments were
appropriate.  National Government Services, the Medicare Part B carrier for
about 38,000 providers in New Jersey, processed 1,265 high-dollar payments
during the audit period.  Providers
refunded four overpayments totaling $96,000 prior to our fieldwork and one
$10,000 overpayment during our fieldwork.  Two overpayments totaling $2,800
remained outstanding.
We recommended that National Government Services (1) recover the $2,800 in
overpayments,  (2) review the remaining 1,165 high-dollar claims processed
during CYs 20032005 with potential overpayments estimated at $1.27 million
($1.37 million less $109,000) and work with the providers that claimed these
services to recover any overpayments, (3) consider identifying and recovering
any additional overpayments made for high-dollar Part B claims paid after CY
2005, and (4) use the results of this audit in its provider education
activities.  National Government Services agreed with our recommendations.